GENERAL SERVICES ADMINISTRATION
   OFFICE OF INSPECTOR GENERAL



                    Recovery Act Report –
    Improper Obligation of Construction Contingency Funds
    Review of PBS’s Major Construction and Modernization
        Projects Funded by the American Recovery and
                   Reinvestment Act of 2009
              Audit Number A090172/P/R/R11016

                      September 30, 2011
Date:             September 30, 2011

Reply to          R. Nicholas Goco
Attn of:          Deputy Assistant Inspector General
                  For Real Property Audits (JA-R)

Subject:          Recovery Act Report – Improper Obligation of Construction Contingency Funds
                  Audit of GSA’s Major Construction and Modernization Projects Funded by the
                  American Recovery and Reinvestment Act of 2009
                  Audit Number A090172/P/R/R11016

To:               Robert A. Peck
                  Commissioner, Public Buildings Service (P)


During our oversight of the General Services Administration’s American Recovery and
Reinvestment Act (Recovery Act) projects, we identified two contract modifications for the
Department of Commerce Building modernization project in the National Capital Region that
resulted in the improper obligation of construction funds. These modifications did not satisfy the
specificity requirements of the Recording Statute; therefore no obligations were incurred. In
addition, the modifications were not fully priced prior to execution, violating the Federal
Acquisition Regulation (FAR).

Contract Modifications Violated the Recording Statute Requirement for Specificity

On March 1, 2011, GSA issued two modifications to the Construction Manager as Constructor
(CMc) contract for the Department of Commerce Building modernization project to award a
“Current Needs Fund” (CNF). These modifications, which totaled $12,575,000 1, established the
CNF as a vehicle to obligate project contingency funds. However, GSA’s obligation of these
funds was improper because the obligations did not meet the specificity requirements of the
Recording Statute.

Recovery Act funds are available for obligation provided they meet Recording Statute 2
requirements for Government obligations. To incur an obligation, an agency must have
documentary evidence of a binding agreement between the agency and a vendor for specific
goods or work services to be provided. GSA issued these CNF modifications to cover five broad
categories of work 3; however, no specific scope of work was identified.


1
  PC81 awarded $7,525,000 for Phase 2 work; PC82 awarded $5,050,000 for Phase 3.
2
  31 U.S.C. 1501(a)(1)
3
  Design revisions and/or remediation to correct differing site conditions; utility phasing revisions to transition
current utilities and new utilities; design revisions to incorporate GSA facilities standards updates; design revisions

                                    1800 F Street, NW, Washington, DC, 20405-0002
According to GSA officials, the CNF was set up to fund work on previously unknown, existing
building conditions encountered during ongoing or prior phases that are expected to be replicated
throughout the building. When these conditions are encountered, the contractor is to provide
fully detailed proposals for each work item that is to be charged against the CNF. Once an
agreement for scope or pricing is established for each work item, the work item will be fully
definitized by contract modification to establish the cost of the work. In effect, these CNF
modifications constitute contingencies and outline services that the contractor may provide. As
such, the associated obligations do not satisfy the Recording Statute.

GSA Did Not Establish Modification Pricing Prior to Execution

The FAR requires that all contract modifications, including change orders, be priced before they
are executed unless doing so would adversely affect the interests of the Government 4. Similarly,
the GSA Acquisition Manual states that the government can order a contractor to proceed with
work on a price to be determined later (PDL) basis if the Contracting Officer determines that it is
in the best interests of the Government that the contractor proceed before negotiation of an
equitable adjustment is completed. The CNF modifications did not establish pricing, but do not
warrant a FAR exception or pricing on a PDL basis.

The justification provided in the Statement of Work for the CNF modifications indicates that the
fund is needed to provide a finished, fully functioning project that complies with Recovery Act
provisions and ancillary program requirements. However, the need to produce a fully
functioning facility for federal agencies is a requirement of all GSA construction projects and is
not unique to projects funded by the Recovery Act. Therefore, the stated justification does not
warrant an exception to the above-mentioned FAR and GSAM requirements.

It appears that concerns over the possible revocation of Recovery Act funding may have been the
impetus for using the CNF. In early 2011, Congress considered legislation 5 that would have
rescinded all unobligated Recovery Act funds. In preparation for this possibility, GSA sought to
obligate all remaining contingency funds that could be substantiated and justified prior to any
Congressional action. The Project Management Office discussed with project managers a
process to do so, and provided guidance that all obligations should be for a bona fide need and
have a defined scope, estimate, and pricing. However, PBS staff circulated a template of the
CNF modification for use on projects in other regions.

Conclusion

After being notified of these findings, GSA de-obligated $9.8 million of unused funds on these
two modifications. However, given the urgency that GSA demonstrated in obligating the
Recovery Act funding and circulating the template for Current Needs Fund modification, we


to incorporate fire, safety, and accessibility updates; and utility reimbursements to cover work performed by local
utilities that was not covered by the Guaranteed Maximum Price set by GSA.
4
  FAR Part 43.102 (b)
5
  The House of Representatives passed H.R.1 on February 19, 2011, but the bill failed in the Senate on March 9,
2011.

                                                          2
have a concern that similar situations may arise. If any such funds are not properly re-obligated
prior to October 1, 2011, the Recovery Act funds may expire. Accordingly, GSA should develop
and implement a methodology to review contract modifications to ensure that funding
obligations are in accordance with federal laws and regulations.

Recommendations

We recommend that the Commissioner of the Public Buildings Service develop and implement a
methodology to review GSA contract modifications to ensure that obligations are valid. In
performing the review, GSA should:

   •   Document the review methodology/process;
   •   Track which actions were reviewed and by whom; and
   •   Record any improper obligations found, de-obligate unspent funds, and report the
       findings to the independent public accountant.

Management Comments

In its comments, management acknowledged the audit findings and concurred with the
recommendations (see Appendix A). We made non-substantive changes to the report in response
to management’s comments.


We appreciate the support that has been provided throughout this audit. If you have any
questions about this memorandum, please contact me at (202) 219-0088.


Sincerely,



R. Nicholas Goco
Deputy Assistant Inspector General for Real Property Audits (JA-R)




                                               3
                Recovery Act Report –
Improper Obligation of Construction Contingency Funds
 Audit of GSA’s Major Construction and Modernization
    Projects Funded by the American Recovery and
               Reinvestment Act of 2009
          Audit Number A090172/P/R/R11016

               Management Comments




                         A-1
                Recovery Act Report –
Improper Obligation of Construction Contingency Funds
 Audit of GSA’s Major Construction and Modernization
    Projects Funded by the American Recovery and
               Reinvestment Act of 2009
          Audit Number A090172/P/R/R11016

           Management Comments (cont’d)




                         A-2
                Recovery Act Report –
Improper Obligation of Construction Contingency Funds
 Audit of GSA’s Major Construction and Modernization
    Projects Funded by the American Recovery and
               Reinvestment Act of 2009
          Audit Number A090172/P/R/R11016

        Management Comments (Attachment)




                         B-1
                                       Recovery Act Report –
                       Improper Obligation of Construction Contingency Funds
                        Audit of GSA’s Major Construction and Modernization
                           Projects Funded by the American Recovery and
                                      Reinvestment Act of 2009
                                 Audit Number A090172/P/R/R11016

                           Background, Objectives, Scope, and Methodology


Background

The American Recovery and Reinvestment Act of 2009 (Recovery Act) provides the General
Services Administration (GSA) with $5.55 billion for the Federal Buildings Fund. In accordance
with the Recovery Act, the GSA Public Buildings Service is using the funds to convert federal
buildings into High-Performance Green Buildings as well as to construct federal buildings,
courthouses, and land ports of entry. The Recovery Act mandated that $5 billion of the funds
must be obligated by September 30, 2010, and that the remaining funds be obligated by
September 30, 2011. The GSA Office of Inspector General (OIG) is conducting oversight of the
projects funded by the Recovery Act.

The Department of Commerce modernization project will be completed in eight phases, at a total
estimated construction cost of over $750 million. Phase 1 received $71.4 million for
construction and reached substantial completion in October 2009. The project received
Recovery Act funding in 2009 for Phases 2 and 3 in the amount of $225,638,000 6. Phases 2 and
3 are expected to be completed in June 2012, and the project is expected to be completed in its
entirety in 2021.

Objectives

The objective of the OIG’s Recovery Act oversight is to determine if GSA is planning, awarding,
and administering contracts for major construction and modernization projects in accordance
with prescribed criteria and Recovery Act mandates. The work for this report was performed
while evaluating modifications to the Department of Commerce Building construction project.

Scope and Methodology

To accomplish the objective, we conducted fieldwork in the National Capital Region, reviewed
the contract file and other pertinent project documents, met with project staff, and reviewed
applicable guidance and regulations.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
6
    The amount was later reduced to $185,167,000

                                                   C-1
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

The planning for this audit is based on the audit plan for oversight of the Recovery Act projects
as well as review guidance being applied to all Recovery Act projects. A separate guide was not
prepared for this project.

As this work was performed under the continuing oversight of all GSA Recovery Act projects,
management controls are currently under assessment. Only those management controls discussed
in the report have been assessed.




                                              C-2
                                  Recovery Act Report –
                  Improper Obligation of Construction Contingency Funds
                   Audit of GSA’s Major Construction and Modernization
                      Projects Funded by the American Recovery and
                                 Reinvestment Act of 2009
                            Audit Number A090172/P/R/R11016

                                      Report Distribution


Commissioner, Public Buildings Service (P)

Regional Commissioner, Public Buildings Service (WP)

Director, Internal Control and Audit Division (BEI)

Assistant Inspector General for Auditing (JA, JAO)

Regional Inspector General for Investigations (JI-W)

Assistant Inspector General for Investigations (JI)




                                                D-1
